HHS/OIG, Audit -"Audit of Head Start Costs for Fiscal Year Ending January 31, 2005
for Juniata County Child Care and Development Services, Inc.,"(A-03-05-03317)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Head Start Costs for Fiscal Year
Ending January 31, 2005 for Juniata County Child Care and Development Services, Inc.," (A-03-05-03317)
January 26, 2006
Complete
Text of Report is available in PDF format (594 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to review the financial practices and transactions relative to the Head
Start grant awarded to Juniata County Child Care and Development Services, Inc. (Juniata)
for the period February 1, 2004, through January 31, 2005.  Of $889,733 recorded costs
for the Head Start program, we did not accept and recommend for adjustment $108,905 comprising
of $90,000 used improperly to pay off a line of credit bank debt established during the previous
grant year and $18,905 of unallowable and unsupported costs.  We also set aside $44,307
for Administration for Children and Families (ACF) adjudication because Juniata did not provide
adequate documentation to support this amount.  Since Juniata relinquished its grant,
we recommended that ACF:  (i) require Juniata to refund $90,000 of 2005 grant funds
used to improperly pay off a line of credit bank debt established during the prior year;
(ii) require Juniata to refund $18,905 of unsupported and/or unallowable costs; and (iii)
make a determination on the acceptance of $44,307 for set-aside costs that did not have sufficient
supporting records for us to determine allowability.